IN THE SUPREME COURT OF THE UNITED STATES
No. 19-757
Arizona Libertarian Party and Michael Kielsky, Petitioners,
v.
Katie Hobbs, Arizona Secretary of State, Respondent.

CERTIFICATE OF SERVICE

It is hereby certified that Petitioners Arizona Libertarian Party and Michael
Kielsky, through counsel, have been served with copies of the Arizona Secretary of
State Katie Hobbs’ Brief in Opposition, via email, this 7th day of May, 2020.
As required by Supreme Court Rule 33.2(b), I certify that the document
contains 19 pages, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d). I declare under penalty of perjury that the foregoing
is true and correct.
EXECUTED on this 7th day of May, 2020.

/s/ Kara Karlson

Kara M. Karlson
ARIZONA ATTORNEY GENERAL’S OFFICE
2005 N. Central Ave.
Phoenix, AZ 85004
602.542.5025
Kara.Karlson@azag.gov

